IN THE SUPREME COURT OF THE UNITED STATES
FEBRUARY 12, 2021
GEORGE JOSEPH RAUDENBUSH III
PETITIONER
MONROE COUNTY, TENNESSEE et al.,
RESPONDENTS

CERTIFICATE OF SERVICE
THIS CERTIFICATE OF SERVICE SHALL BE SERVED UPON
The law Firm of Taylor & Knight, representing Monroe County, Bill Bivens and Travis Jones.
800 S. Gay Street Suite 600 Knoxville, TN 37929 (865) 971-1701.
Law Firm of Watson & Roach, representing City of Tellico Plains and Brian Millsaps.
1500 Riverview Tower 900 S. Gay Street Knoxville, TN 37901 (865) 637-1700.
CERTIFICATE OF SERVICE
I hereby certify that on this 12th day of February, 2021, a copy of the Petition for Rehearing and Affadavit of Good Faith and New Evidence, is being prepared electronically to be sent to: The defendants
representatives. They shall receive an e-mail copy of this writ and all accompanying documents filed
with the United States Supreme Court within the next 30 days. Defendants may also access this filing
through the Court's electronic filing system and records of the court.
Attorney Arthur F. Knight, III
Attorney Jonathan Swann Taylor
Taylor & Knight
800 S. Gay Street, Suite 600
Knoxville, Tennessee 37929
jstaylorOtaylorknightlaw.com
(865) 971-1701

Attorney Reid Spaulding
Watson, Roach, Batson, Rowell & Lauderback
P.O. Box 131
Knoxville, Tennessee 37901
rspauldingOwatsonroach.com
(865) 637-1700

eorge Joseph Iraudenbush III
2545 Woodbine Avenue
Knoxville, Tennessee 37914
standfast4truth@yahoo.com
(865) 228-9170

